OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/EGYPT’S
LEADERS FOR EDUCATION
AND DEVELOPMENT
SCHOLARSHIP INITIATIVE
PROGRAM

AUDIT REPORT NO. 6-263-11-002-P
November 10, 2010




CAIRO, EGYPT
Office of Inspector General




November 10, 2010

MEMORANDUM

TO:        	           USAID/Egypt Mission Director, James Bever

FROM: 	                Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:	              Audit of USAID/Egypt’s Leaders for Education and Development Scholarship
                       Initiative Program (Report No. 6-263-11-002-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in Appendix II.

The report includes 5 recommendations for your action. On the basis of your written comments,
we consider that management decisions have been made on all 5 recommendations. Please
provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer (M/CFO/APC) with the necessary documentation to achieve final action.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1a Nady El-Etisalat St. off El-Laselki Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS

Summary of Results ................................................................................................. 1 

Audit Findings ........................................................................................................... 4 

     USAID/Egypt Should Improve Program Oversight............................................... 7 

     USAID/Egypt and Implementer Should Ensure That 

     Cooperative Agreement Requirements Are Followed ......................................... 10 

     USAID/Egypt Should Ensure Followup on Program 

     Graduates ........................................................................................................... 12 

Evaluation of Management Comments ................................................................. 14 

Appendix I – Scope and Methodology .................................................................. 15 

Appendix II – Management Comments ................................................................. 17 

Appendix III – Program Expenditures, Average Student 

Costs, and Student Majors..................................................................................... 20 

Appendix IV – Implementer’s Targets and Reported Results............................. 21

Appendix V – Student Satisfaction Rates for Selected 

Activities .................................................................................................................. 22 

Appendix VI – Student Participation Rates for Selected 

Activities .................................................................................................................. 23

SUMMARY OF RESULTS
Begun in 2004, the USAID/Egypt Leaders for Education and Development Scholarship
Initiative (LEAD) Program has recruited, competitively selected, and provided
scholarships to underprivileged students throughout Egypt to attend the American
University in Cairo (AUC). The program’s current objectives are to award scholarships
to two public school students, one male and one female, from each Egyptian
governorate;1 to train and equip these students with skills to become leaders in their
society; and to enable the students to contribute to activities focused on Egypt’s
development. The program provides funding for tuition, books, housing, and a living
allowance for up to 6 years of study. In addition, the program offers a limited number of
students the opportunity to participate in a study-abroad program for one semester at a
university in the United States.2

USAID/Egypt awarded two cooperative agreements to AUC to implement the program.
The first LEAD cooperative agreement (Table 1), begun in July 2004, funded
scholarships for 106 students starting AUC in fall 2004 and fall 2005, and supported 56
students starting in fall 2006 during their first semester at AUC.3

         Table 1: First LEAD Cooperative Agreement (263-A-00-04-00030-00)

                                                                           Amount Awarded
          Class Starting                Scholarship Recipients
                                                                             ($ Million)
               2004                                   48
               2005                                   58
               2006*                                  56
               Total                                 162                           11.4 †

* The first cooperative agreement covered only the first semester of the 2006 class.            The
remaining semesters were covered under the second cooperative agreement.
†
  As of July 2010.

For fiscal year 2006, the U.S. Congress specifically earmarked funds to support
scholarships that would allow Egyptian students with great financial need to attend a
U.S.-accredited university in Egypt. To comply with this earmark, USAID/Egypt’s Office
of Education and Training awarded a second LEAD cooperative agreement to AUC—the
only U.S.-accredited university in Egypt—in March 2007. This cooperative agreement
(No. 263-A-00-07-00023-00) is valued at approximately $30.8 million and funded the
remainder of the tuition and costs for the fall 2006 LEAD class and has provided
scholarships for three additional class years in 2007, 2008, and 2009 (Table 2). As of
March 31, 2010, the average annual program cost for LEAD students beginning the
program in fall 2008 and fall 2009 was $27,020 per student. These costs include tuition,
housing, and student activity fees, as well as program administrative costs for office

1
  Egypt is divided into administrative units referred to as governorates. 

2
  This audit focused on students starting the program in fall 2008 and fall 2009. At the time of the 

audit, no students from these two classes had participated in a semester abroad program, so

activities related to that objective were not audited. 

3
  Cooperative Agreement No. 263-A-00-04-00030-00. 



                                                                                                   1
equipment and staff salaries.     Appendix III provides additional information on
expenditures and students’ areas of study (page 20). As of March 2010, cumulative
obligations and disbursements for the second agreement totaled $30.8 million and
$10.3 million, respectively.

      Table 2: Second LEAD Cooperative Agreement (263-A-00-07-00023-00)*

                                                                         Amount Awarded
         Class Starting                Scholarship Recipients
                                                                           ($ Million)
              2007                                 52
              2008                                 54
              2009                                 57 †
              Total                               163                             30.8

* This cooperative agreement also covered all but the first semester for the 56 students starting
the program in fall 2006.
†
  One governorate had only one viable scholarship candidate during this year.

The objective of the audit was to determine whether the program was achieving its main
objectives of recruiting, selecting, and providing scholarships to Egyptian public school
students to equip them with skills to become leaders in their society and to contribute to
activities focused on Egypt’s development.

For students starting the program during academic years 2008–2009 and 2009–2010,
USAID/Egypt and its implementer, AUC, achieved the main objectives of the LEAD
program. Between July 2004 and July 2010, the LEAD program provided 325
scholarships valued at $42 million and, according to AUC staff, 69 students supported by
the program have already graduated (see page 12). The program has had a 91 percent
retention rate since it began and an 88 percent graduation rate for students reaching the
6-year program limit.4 Only 28 of the 325 LEAD students, or 9 percent, either have been
dismissed from the program or withdrew before completing their studies (see page 12).5
For the population reviewed in this audit—students beginning in fall 2008 and fall 2009—
the program has been successful in student recruitment and selection. AUC used
multiple methods to publicize the program and was able to recruit and select one male
and one female student from most Egyptian governorates (pages 4–5). In its Fiscal
Year 2009 Performance Plan and Report, USAID/Egypt currently uses and reports on
one standard indicator related to recruitment and selection to measure the success of
AUC’s LEAD Program: number of scholarships awarded (see page 5).

The program also conducted scholarship program activities to develop students’
leadership and community service skills (pages 5–7). However, for the audit sample of
50 of the 107 students who began the program in fall 2008 and fall 2009 and were still in
the program at the time of our audit, AUC did not meet targets for half the indicators it

4
   This graduation result compares well with data on U.S. college graduates. Approximately
43 percent of students seeking a bachelor's degree or its equivalent at U.S. institutions do not
finish in 6 years or less.
5
  Of the 325 students awarded scholarships, 2 prospective students withdrew their applications
prior to formal enrollment at AUC. According to AUC, students typically withdrew to pursue
degrees not offered at AUC. AUC dismissed 22 students (or 7 percent), primarily for academic
reasons, and 6 other students (2 percent) chose to withdraw.


                                                                                               2
had developed for its own use and that of USAID/Egypt in assessing the results of
program activities (page 6). For example, while AUC met its target for student
satisfaction with activities for both years reviewed, it did not meet grade point average
targets in either year.

The mission can improve its management controls over the program by—

   1. 	 Improving program oversight (page 7).

   2. 	 Following and enforcing cooperative agreement requirements (page 10).

   3. 	 Finalizing the plan to follow up on graduates (page 12).

The audit recommends that USAID/Egypt:

	 Amend the cooperative agreement to require mission approval of annual work plans
   that establish program activities and target dates related to program objectives (page
   10).

	 Document its review of the program monitoring and evaluation plan to ensure that
   performance indicators used to measure program results are defined and
   documented (page 10).

	 Develop a monitoring process to periodically review AUC’s data for completeness,
   accuracy, and consistency (page 10).

	 Document its review of the cooperative agreement with AUC to ensure that mission
   and implementer activities are identified and understood by all parties, and are
   reflected in other implementing documents, such as the work and monitoring plans
   (page 12).

	 Develop and implement a monitoring plan to track and assess graduates’ leadership
   and development activities to document program impact (page 13).

Detailed findings appear in the following section. The audit scope and methodology are
described in appendix I (page 15). Management comments are included in their entirety
in appendix II (page 17).




                                                                                       3
AUDIT FINDINGS

During academic years 2008–2009 and 2009–2010, USAID/Egypt’s Office of Education
and Training and the American University in Cairo (AUC) achieved the Leaders for
Education and Development Scholarship Initiative (LEAD) Program objectives to recruit,
select, and conduct scholarship program activities for underprivileged students from
throughout Egypt. USAID/Egypt and AUC used activity targets developed by AUC to
gauge results of activities designed to develop students’ leadership and community
service skills. However, according to audit analysis of program data, for some students
beginning the program in fall 2008 and fall 2009, AUC had met no more than half of the
targets documented in its monitoring and evaluation plan. Appendix IV illustrates the
activity targets and results for the two academic classes.

Recruitment and Selection – AUC generally performed program recruitment and
selection activities in accordance with the cooperative agreement. Program staff
recruited prospective Egyptian students through electronic and letter mail, newspaper
announcements (like the one shown below), and public outreach activities. AUC
focused much of its recruitment campaigns in Egyptian governorates where application
rates had been low. After the recruitment campaign for the fall 2008 class, program staff
developed and implemented guidelines to ensure that the university selected qualified
students for the program. To improve the program’s selection process for the fall 2008
and 2009 classes, AUC staff revised interview questions, developed a methodical file
review process, and defined attributes on which to rank the student applicants.




                      Newspaper advertisement used by AUC to recruit 

                            for the 2008–2009 academic year. 

                                 (Image provided by AUC) 


AUC successfully selected one male and one female student from most governorates
during the 2008–2009 academic year. Program staff selected 54 students from 26


                                                                                       4
Egyptian governorates to begin study at AUC.6 Moreover, the program staff achieved its
objective of selecting a total of 57 students from most governorates during the 2009–
2010 academic year.7 During both academic years, no female candidates from one
governorate in southern Egypt met the program’s selection criteria. For the 2008–2009
academic year, AUC and USAID/Egypt agreed to select an additional male applicant
from a governorate that historically had fewer LEAD candidates to fill the void for the
academic year. For the 2009–2010 year, no additional student was selected for the
program, resulting in 57 rather than 58 students for that year.

Scholarship Program Activities – AUC conducted activities designed to develop
students’ leadership and community service skills, in keeping with the program
objectives. For example, the program held team-building retreats in governorates
throughout Egypt, supported annual conferences, required student participation in
community development activities, and facilitated training in presentation and time
management. Accordingly, 28 of the 29 students contacted during this audit stated that
they were generally satisfied with both the overall program and program staff.




                      LEAD students participated in team-building retreats, 

                                such as this one in the Sinai. 

                                  (Image provided by AUC) 


Although USAID/Egypt reports on the number of scholarships awarded, the mission had
not developed any indicators to measure the overall results of program activities.
Rather, USAID/Egypt reported using activity targets included in AUC’s monitoring and
evaluation plan to monitor results of program activities.8 The six monitoring and
evaluation plan targets included (1) student grade point average, (2) improvement in
grade point average for selected students, (3) student scores on a leadership index

6
  The program has historically awarded scholarships to two students from Luxor, a city in the
Governorate of Qena. Luxor was officially designated as a governorate in December 2009.
7
  During 2008, Egypt increased the number of governorates from 26 to 28, when Helwan and
Sixth of October became governorates. The designation of Luxor as a governorate in late 2009
increased the number of governorates to 29.
8
  AUC’s monitoring and evaluation plan uses the term “target” to describe the specific elements
measured to determine the success of scholarship program activities.


                                                                                             5
developed by LEAD, (4) student participation rate, (5) student satisfaction with activities,
and (6) student satisfaction with LEAD coordinators.9 USAID/Egypt staff used AUC’s
targets to monitor the success of the program’s scholarship activities, although mission
staff stated that AUC’s targets exceed the requirements of the cooperative agreement.

For the audit sample of 50 of the 107 students starting in fall 2008 and fall 2009, AUC
met or exceeded some of the six monitoring and evaluation plan targets.10 For both
classes, AUC met or exceeded targets for improvement in grade point average for
selected students and student satisfaction with activities. For the fall 2008 class, AUC
also achieved intended results for student participation rate. For the fall 2009 class, the
program fell slightly short of achieving its target for student participation rate and did not
achieve two other targets—student grade point average and scores on a leadership
index developed by LEAD. AUC program officials did not collect any information on one
target, student satisfaction with LEAD coordinators, for either class.

In addition to the program activity targets developed by AUC to measure program
achievements, USAID/Egypt’s cooperative agreement requires students to maintain a
grade point average (GPA) of 2.0 for continued eligibility. Students with GPAs below 2.0
are placed on academic probation for two semesters. Over a 2-year period, at least
eight students had grade point averages less than 2.0 for at least one semester.
However, as of July 2010, four of these students had increased their GPAs above 2.0
within one semester. Tables 3 and 4 provide more information on grade point averages.

              Table 3: Grade Point Averages for Fall 2008 Class Sample*

                                Fall 2008       Spring 2009       Fall 2009       Spring 2010
     Grade Point Average
                               Cumulative       Cumulative       Cumulative       Cumulative
    Below 2.00                       1               0              1                 2
    From 2.00 to 2.99                1               4              9                 9
    3.00 or Higher                   9              15             12                11
    English Language
                                    12                 4              0                0
    Institute program†

* Because one student was dismissed after the first program year, the number of students
decreased by one between spring 2009 and fall 2009. GPAs for an additional two students from
the audit sample were not available because these students withdrew from the program.
†
  English Language Institute program’s courses are graded on a pass/fail basis and do not affect
a student’s GPA.




9
   The LEAD monitoring and evaluation plan also included an activity target for student
participation in community involvement campaigns. According to AUC officials, this measure
contributed to the leadership index target developed by LEAD.
10
   While 111 applicants were selected for the program (54 for the fall 2008 class and 57 for the
fall 2009 class), two students withdrew prior to enrolling and another withdrew after the program
started. In addition, at the time of our audit, one student had been dismissed from the program.
As a result, the total population for the fall 2008 and fall 2009 classes was 107 students.


                                                                                               6
              Table 4: Grade Point Averages for Fall 2009 Class Sample

                                                      Fall 2009       Spring 2010
                  Grade Point Average
                                                     Cumulative       Cumulative
          GPA Below 2.00                                  3                2
          GPA from 2.00 to 2.99                           2                5
          GPA 3.00 or Higher                              5               10
          English Language Institute
                                                          15                8
          program†
†
 English Language Institute program’s courses are graded on a pass/fail basis and do not affect
a student’s GPA.

AUC generally has been successful in recruiting, selecting, and conducting scholarship
program activities for students. However, USAID/Egypt has the potential to increase
program results by strengthening its management controls. Specifically, the mission
needs to—

       Improve oversight of the program.
       Follow and enforce cooperative agreement requirements.
       Finalize the plan to follow up on graduates.

USAID/Egypt Should Improve
Program Oversight
Automated Directives System (ADS) 303, “Grants and Cooperative Agreements to Non-
Governmental Organizations,” requires the agreement officer’s technical representative
(AOTR) to monitor and evaluate a recipient’s performance during the award. In addition,
it requires USAID to always have some involvement in assistance awards—for example,
monitoring performance and reviewing implementer reports. Moreover, the LEAD
program AOTR’s designation letter outlines various oversight responsibilities, including
monitoring AUC’s progress in achieving the objectives of the cooperative agreement and
verifying that AUC’s program-funded activities conform to the terms and conditions of the
award. In addition, ADS 202.3.6, “Monitoring Quality and Timeliness of Key Outputs,”
notes that monitoring the quality and timeliness of outputs produced by implementing
partners is a major role for AOTRs. USAID also provides extensive guidance related to
data quality. ADS 203.3.5.1, “Data Quality Standards,” identifies five criteria for
assessing data quality: validity, integrity, precision, reliability, and timeliness. While this
ADS component is specific to data used for performance management plans, these
criteria can be used as a resource to help missions to ensure the appropriateness of
data on which they rely.

USAID/Egypt’s Office of Education and Training conducted limited monitoring of the
program’s performance. Mission staff reported monitoring the program by reviewing
AUC’s vouchers and quarterly progress reports. The office’s AOTR compared
information from the progress reports with activity targets identified in AUC’s monitoring
and evaluation plan. In addition, the AOTR reported reviewing announcements
designed to recruit students, conducting site visits, and maintaining regular contact with
AUC program staff. On the basis of these reviews, the AOTR stated that the office


                                                                                             7
believed the program was on track to achieve its objectives. However, mission staff did
not test or verify the data provided in the progress reports. In addition, mission staff did
not review implementer work plans, which are normally used to document actual
program activities, because this type of review was not required by the cooperative
agreement. Moreover, AUC did not exercise sufficient care in documenting and
reporting data to the mission.

Documentation Should Be Improved – Although not required to do so by the
cooperative agreement, AUC program officials developed work plans for the 2008 and
2009 LEAD classes, documenting planned activities. In addition, program officials
developed a monitoring and evaluation plan with targets, including student participation
rates and student satisfaction with activities. Yet these plans had deficiencies.

The work plans for students beginning the program in fall 2008 included activities to
develop students’ leadership skills. However, the work plan for these students did not
set target dates for activities or describe how they related to program objectives. During
the absence of a LEAD coordinator at the beginning of the fall 2009 semester, AUC
officials did not develop a work plan as a guide for program activities for the new
students prior to the start of the academic year. After AUC hired a coordinator in
October 2009, the new staff person created the work plan progressively throughout the
semester.

Although AUC included activity targets for student participation and satisfaction in its
monitoring and evaluation plan for the 2008–2009 and 2009–2010 academic years,
neither USAID/Egypt nor AUC clearly defined what type of documentation was required
to demonstrate meeting these targets. As a result, documentation that the program
coordinators collected and maintained was incomplete. LEAD coordinators did not
always require students to attend activities, document attendance, or complete
satisfaction surveys. In addition, the coordinators did not request attendance sheets
from other AUC offices that provided training or organized other events for the LEAD
students. Further, program staff were not aware of one target described in the plan—
student satisfaction with LEAD coordinators; therefore, staff did not collect any data on it.
Moreover, although AUC tracked satisfaction data in multiple spreadsheets, program
staff could not always provide evaluation forms to support the information entered into
those spreadsheets.

AUC did not define or maintain documentation needed to support the results reported to
USAID in progress reports. The documentation weaknesses diminished the value of
information reported to USAID/Egypt.

Data Reliability Should Be Improved – USAID/Egypt’s Office of Education and
Training cannot fully rely on information in AUC’s progress reports because of
incomplete and unreplicable data for the selection process and on student satisfaction
and participation rates. Information in the selection databases was incomplete. For
example, English language test scores of several applicants for the 2008–2009
academic year were never entered into the selection database. Similarly, AUC did not
enter scores for final applicant interviews for the 2009–2010 academic year into the
selection database.      Program staff stated that the interview panel made
recommendations for selection and that, although the interview scores should have been
entered, staff did not enter the information into the selection database because of
insufficient time.


                                                                                           8
In addition, the steps taken to sort and weigh the selection data were unclear and could
not be easily replicated. The AUC selection databases did not clearly identify elements
used to determine results for each stage of the selection process, such as language
testing, national test scores, and scores based on an applicant file review. The lack of
clear protocols used to sort data and rank applicants made it difficult for AUC officials to
replicate and explain the information on applicants generated during each phase of the
selection process, information that was communicated to USAID/Egypt in quarterly
progress reports. AUC reported both actual and projected information in its progress
reports to USAID/Egypt. However, before the audit, USAID/Egypt officials believed that
the information in the progress reports was factual.

In some cases, student satisfaction rates and participation rates that AUC reported to
USAID/Egypt in its progress reports were inaccurate and lacked support. AUC
overreported satisfaction rates by up to 16 percent and underreported them by as much
as 5 percent; similarly, it overreported participation rates by as much as 11 percent and
underreported them by as much as 2 percent. In addition, student satisfaction with and
participation in some activities could not be verified because, as noted previously,
program staff had not collected data on ether target for those activities. Appendixes V
and VI include the data reviewed for both targets.

USAID/Egypt’s Office of Education and Training conducted limited monitoring of the
AUC program. Oversight was not sufficient to ensure that the program accurately
documented results and reported on program activities. According to mission officials,
their monitoring and oversight role was limited by the cooperative agreement. The
cooperative agreement’s substantial involvement provisions include the approval of
AUC’s program coordinator, participation in the development and refinement of selection
procedures, and approval of nominations for scholarship awards. Mission staff reviewed
and questioned AUC program vouchers and reviewed data in progress reports. Mission
staff compared the data with targets in the AUC monitoring and evaluation plan.
However, the AOTR stated that the mission did not request or review the AUC program
work plans because such review was not specified in the cooperative agreement.
Furthermore, mission staff reported resistance from AUC to providing information
beyond that explicitly required in the cooperative agreement. Mission staff also noted
that changing the substantial involvement language of a highly visible cooperative
agreement like the program can be difficult. In addition, officials stated that earmark
language for this program can make it difficult for a mission to design and manage a
program because earmarks can limit mission flexibility and control. According to mission
staff, ambiguities and misconceptions about the mission’s management oversight role,
compounded by difficulties in obtaining information from AUC, affected their oversight of
the program.

Notwithstanding the language in the cooperative agreement that may restrict USAID’s
substantial involvement in the direct management and oversight of a cooperative
agreement, the mission has a fiduciary responsibility to monitor any USAID-funded
program in the interest of the U.S. Government. Because the American people entrust
the stewardship and management of public funds to USAID, mission managers must
ensure that program oversight addresses problems that may impede desired results and
weaken accountability and credibility. Reliance on AUC’s progress reports to monitor
most program activities impedes the mission’s ability to assist an implementer in
improving its processes and procedures to ensure efficient and effective use of USAID


                                                                                          9
resources. Consequently, this audit makes the following recommendations.

   Recommendation No. 1: We recommend that USAID/Egypt amend the Leaders
   for Education and Development Scholarship Initiative Program cooperative
   agreement to require mission approval of annual work plans that establish
   program activities and target dates related to program objectives.

   Recommendation No. 2: We recommend that USAID/Egypt document its review
   of the monitoring and evaluation plan for the Leaders for Education and
   Development Scholarship Initiative Program to ensure that performance
   indicators used to measure program results are defined and documented.

   Recommendation No. 3:         We recommend that USAID/Egypt develop a
   monitoring process to periodically review the American University in Cairo’s data
   for completeness, accuracy, and consistency.

USAID/Egypt and Implementer
Should Ensure That Cooperative
Agreement Requirements Are
Followed
USAID/Egypt’s second cooperative agreement with AUC for the LEAD program
establishes multiple activities that should be conducted during the recruitment, selection,
and scholarship phases, unless both parties agree in writing to modifications. The
agreement, among other things, requires USAID/Egypt to approve final nominations for
scholarship awards and requires AUC to—

      Follow certain selection requirements, including considering applicants who have
       achieved a score of 85 percent or higher on Egyptian national examinations.
      Implement orientation programs for LEAD students.
      Develop annual conferences for all students to share their concerns and plan for
       the subsequent semester. 

      Monitor students’ progress toward graduating within 6 years. 


In at least five instances—related to student selection, scholarship approval, orientation,
the annual conference, and monitoring progress toward graduation—USAID/Egypt’s
Office of Education and Training and AUC did not follow the terms of the cooperative
agreement.

During the selection process for the 2008–2009 academic year, AUC staff used a higher
national testing score than the one specified in the cooperative agreement, 90 percent
instead of 85 percent. As a result, AUC did not consider at least eight students who
scored between 85 and 90 percent for the LEAD program. In this case, AUC did not
notify USAID/Egypt to allow the mission to approve this change to the terms of the
cooperative agreement. In fact, the mission was not aware of the change until this audit
identified the issue.

For its part, USAID/Egypt did not approve the final LEAD scholarship awards, despite
the cooperative agreement requirement that the mission do so. Because the AOTR



                                                                                        10
normally observes selected student interviews as the final component of the selection
process, mission officials stated that approving the scholarship nominations was not
necessary. Further, mission officials noted that the cooperative agreement qualifies the
requirement for USAID/Egypt to approve the scholarship awards, stating that the
“ultimate decision to admit students to [AUC] shall rest exclusively with the University.”
However, by not reviewing and approving the final list of proposed scholarship
recipients, the mission may not be fully cognizant of the program’s award recipients.

Beyond selection, the cooperative agreement requires AUC to arrange orientation
activities for LEAD students, including a Cairo tour for new students, most of whom
come from other parts of Egypt. Instead, for one class of students AUC provided a
dinner at a park and a team-building activity at an art center. In addition, although AUC
was required to introduce a buddy system to students during their orientation in 2008
and 2009, AUC officials could not provide any documentation showing that the officials
implemented or introduced a buddy system. Moreover, at least one LEAD coordinator
was not aware of this requirement.

The cooperative agreement also states that students will attend an annual conference,
where they will establish goals for the following semester. However, program staff did
not require students to attend the annual conference, and not all of them did. In
addition, staff did not use the conference to establish goals for the following semester.
Rather, students planned and organized annual LEAD conferences in Cairo in February
of both the 2008–2009 and 2009–2010 academic years as an experience in event
planning.

AUC did not monitor all students’ progress adequately to ensure graduation within 6
years of enrollment, a condition for students’ participation in the program. The LEAD
director stated that students had to complete academic plans each semester. The
program monitored progress toward graduation by reviewing students’ academic plans.
However, of students beginning study in fall 2009, the audit found that only 32 percent
had completed an academic plan and answered the question in the plan regarding their
progress toward graduating on schedule.




                    This flyer announces the 2009–2010 LEAD conference.
                                   (Image provided by AUC)




                                                                                       11
According to AUC program staff, they were not aware of all the elements included in the
cooperative agreement and did not understand the binding nature of the agreement.
Moreover, the AUC program director believed the agreement contained proposed
activities instead of required activities. In relation to the cooperative agreement
requirement that USAID/Egypt approve the final LEAD scholarship awards, mission staff
stated that the mission exercised adequate oversight of the selection process given that
AUC officials have the authority to make the final scholarship award decisions. Although
the current cooperative agreement states that the selection, implementation, and
scholarship program activities described in the agreement are illustrative, it also states
that changes should be agreed to in writing by both the recipient and USAID/Egypt.

Although USAID/Egypt’s cooperative agreement for LEAD specifies multiple activities
that should be completed during the program’s recruitment, selection, and scholarship
periods, these activities are illustrative and can be changed if both parties agree.
Mission officials will need to play a more active role to ensure that some key program
components are conducted. Since AUC does not recognize the binding nature of the
cooperative agreement as a contractual document, the mission cannot be sure that
program activities will be achieved successfully and as envisioned. Consequently, this
audit makes the following recommendation.

      Recommendation No. 4: We recommend that USAID/Egypt document its review
      of the cooperative agreement for the Leaders for Education and Development
      Scholarship Initiative Program to ensure that mission and implementer activities
      are identified and understood by all parties and are reflected in other
      implementing documents such as the work and monitoring plans.

USAID/Egypt Should Ensure
Followup on Program Graduates
USAID/Egypt’s LEAD program was created, in part, to develop future leaders for society.
In October 2009, USAID/Egypt revised the second cooperative agreement with
Modification No. 5 to require AUC to design indicators to measure program graduates’
contribution to Egyptian society. In accordance with the modification, AUC was to
develop these indicators by the end of March 2010.

As of July 2010, AUC reported that 69 students had graduated with majors in areas
including engineering, computer science, economics, and political science. Forty-two of
the 48 students who started the program in fall 2004 (88 percent) have graduated. An
additional 25 students who began in fall 2005 and 2 students who began in fall 2006
have also graduated.11 Students graduated within the 6-year timeframe, in 5 years on
average. Only 28 of the 325 students admitted to LEAD have been dismissed from the
program or have withdrawn before completing their studies, for a 91 percent retention
rate.

Although students had graduated, AUC had not finalized indicators to track the
graduates’ activities. The AUC staff had developed a draft monitoring and evaluation

11
     These 69 students account for 21 percent of the 325 students admitted to the LEAD program.


                                                                                              12
plan to track graduates’ employment, participation in community service, and continued
professional development. Program staff and graduates noted that the program
coordinators had tracked graduates informally by e-mail and telephone. The LEAD
coordinators included the information gathered informally in quarterly progress reports to
USAID/Egypt.

Until October 2009, USAID/Egypt’s Office of Education and Training did not specifically
require AUC to track graduates. Although the first and second LEAD agreements
identified the need for followup studies to be performed after students graduated, the
agreements did not explicitly require tracking graduates’ activities. By the time
Modification No. 5 to the second agreement took effect, requiring development of
followup indicators, LEAD students had already begun graduating.

Despite the USAID/Egypt AOTR’s suggestions to conduct followup studies of LEAD
graduates, the program had no monitoring and evaluation manager from the time the
former manager left the program in March 2010 to the time of the audit. AUC staff
stated that a replacement, once hired, would be responsible for finalizing the monitoring
and evaluation plan for graduate followup. Although the AUC program director stated
that the program did not have a budget to follow up on LEAD graduates, followup would
be a duty of the monitoring and evaluation manager, whose position was included in the
LEAD budget.

Without followup on graduates, USAID/Egypt and AUC cannot be sure that the
scholarship program is contributing to students’ development as leaders in Egyptian
society. The first students having graduated in fall 2008, USAID/Egypt and AUC have
the opportunity to begin a review of indicators that could demonstrate the overall
success of, and justify continuing, the program. To encourage the mission to seize the
opportunity, this audit makes the following recommendation.

   Recommendation No. 5: We recommend that USAID/Egypt develop and
   implement a monitoring plan to track and assess the leadership and development
   activities of graduates of the Leaders for Education and Development
   Scholarship Initiative Program to document program impact.




                                                                                       13
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Egypt agreed with the five recommendations included in the draft report.
RIG/Cairo reviewed the mission’s responses and has determined that management
decisions have been reached on all five recommendations.

Regarding recommendation no. 1, USAID/Egypt stated that the mission will modify the
cooperative agreement to require the implementer, the American University in Cairo
(AUC), to develop annual work plans with clearly established activities and milestones.
The mission expects AUC to submit an annual work plan by November 30, 2010, for the
program performance period through June 2011. Based on the mission’s planned
actions, RIG/Cairo considers that a management decision has been reached on
recommendation no. 1.

In response to recommendation no. 2, USAID/Egypt agreed with the recommendation
and is preparing to conduct an annual review of AUC’s monitoring and evaluation plan
by December 31, 2010. Accordingly, RIG/Cairo considers that a management decision
has been reached on recommendation no. 2.

Regarding recommendation no. 3, USAID/Egypt agreed with the recommendation and
plans to conduct semiannual meetings with AUC to review the implementer’s data. The
mission also plans to develop a monitoring tool by January 31, 2011 that will include a
file review to confirm the completeness, accuracy, and consistency of data reported on
students’ selection, grade point averages, and attendance at career-building activities.
Consequently, RIG/Cairo considers that a management decision has been reached on
recommendation no. 3.

In response to recommendation no. 4, USAID/Egypt plans to develop a checklist of
required cooperative agreement activities and actions to be used as a monitoring tool in
conjunction with the planned finalized work plans and a revised monitoring and
evaluation plan by December 31, 2010. As a result of these planned actions, RIG/Cairo
considers that a management decision has been reached on recommendation no. 4.

Regarding recommendation no. 5, USAID/Egypt plans to ensure that tracking actions
begin for graduate’s postcollegiate activities using the revised monitoring and evaluation
plan that is to be developed by December 31, 2010. Based on these mission plans,
RIG/Cairo considers that a management decision has been reached on recommendation
no. 5.




                                                                                       14
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Cairo conducted this audit in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions in accordance with the audit objective. We believe the
evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Egypt’s Leaders for
Education and Development Scholarship Initiative (LEAD) Program was achieving its
main goals of selecting and training Egyptian public school students to become leaders
in Egyptian society. To implement the program, USAID/Egypt signed two cooperative
agreements with the American University in Cairo (AUC), valued at approximately $11.4
million and $30.8 million, respectively.12 The audit focused on activities conducted as
part of the second cooperative agreement during the academic years 2008–2009 and
2009–2010 for the program’s fifth and sixth classes of students, which began the
program in fall 2008 and fall 2009, respectively.

In planning and performing the audit, we assessed internal controls related to
documentation and data verification, supervisory and management review, and review of
performance measures and activity targets. Specifically, we evaluated the mission’s
program documentation, including USAID/Egypt’s 2008 and 2009 Federal Managers’
Financial Integrity Act of 1982 documentation, USAID/Egypt’s full performance plan and
report for 2008 and 2009, data quality assessments, and oversight performed by the
agreement officer’s technical representative.

Audit fieldwork was performed at the USAID/Egypt mission and the implementing
partner’s offices from May 31 to July 22, 2010. In addition, the team obtained
information from current LEAD students and graduates through both e-mail and
telephone interviews.

Methodology
To answer the audit objective, we interviewed USAID/Egypt staff to gain an
understanding of the program history, associated risks, and status. We reviewed
program efforts to recruit and select students, implement scholarship program activities
for enrolled students, and follow up with program graduates. We also interviewed
implementing partner (AUC) staff and current and former LEAD students. We reviewed
applicable laws and regulations and USAID policies and procedures. To determine
progress toward the program’s stated objectives, we reviewed documentation provided
by the mission and implementing partner, including the current cooperative agreement
and modifications; progress and financial reports from fiscal years 2008, 2009, and
2010; implementer work plans; files of the agreement officer’s technical representative;

12
   The first cooperative agreement, 263-A-00-04-00030-00, funded the first two classes of
scholarships, along with part of the third. The second, 263-A-00-07-00023-00, funded the
remainder of the third, along with all subsequent classes.


                                                                                   15 

                                                                             APPENDIX I 



and implementer documentation such as selection scoring and training attendance
sheets.

To verify information reported to USAID/Egypt on the selection process and scholarship
program activities, we selected a statistical sample of students and reviewed records for
those students. With the assumption of 5 percent error, a variation of +/- 4 percent, and
a 95 percent confidence level, the Office of Inspector General’s statistician in
Washington selected a random statistical sample of 25 students starting the program in
fall 2008 and 25 students starting the program in fall 2009. For the class starting in fall
2008, two students in our sample withdrew from the program, and one student was
dismissed. In addition, for some measures, student identifier information was not
available. In these cases, files for all students were reviewed. Using this process and
site visits to the implementing partner, we verified the results reported to USAID/Egypt in
the implementing partner’s progress reports. Also using this process, we determined the
extent to which AUC was meeting the targets established in its monitoring and plan,
which USAID/Egypt reported using to monitor program results.

To determine whether the program was addressing cooperative agreement requirements
related to recruitment for the program, we interviewed mission and AUC staff and
reviewed AUC documents related to recruitment. To determine the extent to which the
program was following up with graduates, we interviewed AUC staff and reviewed
relevant documents. We also obtained information from a limited number of LEAD
graduates (12) through an e-mail questionnaire.




                                                                                        16
                                                                                APPENDIX II 




MANAGEMENT COMMENTS




MEMORANDUM 


Date           :           October 11, 2010

To             :           Jacqueline Bell, Regional Inspector General/Cairo

Through        :           James Bever, Mission Director /s/

From           :           Evelyn Perez, OET Office Director /s/

Subject        :           Mission Response to Draft Audit of USAID/Egypt’s
                           Leaders for Education and Development Scholarship
                           Initiative Program


USAID/Egypt has reviewed the draft Audit Report No. 6-263-10-00X-P dated September
29, 2010 and following is the Mission response to the Audit report. The Mission would
like to thank the staff of the RIG Office for the time and effort that they put into the audit
of USAID/Egypt’s Leaders for Education and Development scholarship program. The
Mission appreciates the opportunity to provide written comments regarding the subject
report.

The USAID/AUC relationship is politically very important and is a strong element of the
U.S. government’s bilateral relationship with Egypt. The USG has a long history of
recognizing AUC’s unique position and capabilities in Egypt, especially in an increasingly
contentious Middle East. The LEAD program helps support the United States’ joint
efforts with the Government of Egypt to strengthen development of the workforce and
promote human capacity building through scholarship and higher education programs
and opportunities.

The LEAD program has progressively improved over the last years. An evaluation of the
LEAD program was conducted in May 2008 to assess the extent the project objectives
were being met. Since that evaluation, there have been many significant program
improvements and adjustments. For example, LEAD management has developed and
implemented student grant terms and conditions to better hold all stakeholders
responsible.




                                                                                        17 

                                                                             APPENDIX II 



The RIG audit report noted that OET stated resistance from AUC in providing
information beyond what was explicitly required in the cooperative agreement.
The report further added that Mission officials stated that the earmark language
pertaining specifically to this program make it difficult to closely monitor
implementation. Various Mission staff also reported that changing the substantial
involvement language of a highly visible cooperative agreement such as the
LEAD program is difficult. In light of the above facts, OET believes the RIG audit
report will enable the Mission to take additional steps to improve implementation
of the LEAD program through an amendment of the cooperative agreement
which allows deeper USAID/Egypt management oversight.

RIG Recommendation 1: We recommend that USAID/Egypt amend the Leaders for
Education and Development scholarship program cooperative agreement to require
mission approval of annual work plans that establish program activities and target dates
related to program objectives.

RIG Recommendation 2: Document its review of the cooperative agreement and the
American University in Cairo’s Leaders for Education and Development Scholarship
Initiative Program monitoring and evaluation plan to ensure that performance indicators
and expectations are clearly defined and documented (see page8).

       OET Response: Agreed. OET will modify the cooperative agreement to require
       annual work plans with clearly established activities and milestones. AUC will
       submit an Annual Work Plan by November 30, 2010 covering the period through
       June 30, 2011. Further, OET together with AUC will review the binding nature of
       the cooperative agreement and its amendments annually. This review will also be
       used to review AUC's M&E plan in accordance with the suggestions on clearly
       define the type of documentation is required to demonstrate meeting targets and
       ensure effective monitoring of performance indicators related to student
       selection, scholarship approval, orientation, conference activities, and graduation
       monitoring activities. The first such meeting will occur during the first quarter of
       FY11. Meeting notes will be produced.

       Based on the above, the Mission believes that a management decision has been
       reached on this audit recommendation and requests closure of Recommendation
       No. 1 and 2 upon the modification of the cooperative agreement and the report
       issuance.

RIG Recommendation 3: Develop a monitoring tool to periodically review the
implementer’s data for completeness, accuracy, and consistency (see page 8).

       OET Response: Agreed. Beginning in January 2011, OET will lead a regularly
       scheduled semi-annual meeting in which AUC‘s data will be reviewed and this
       will verify LEAD’s quarterly activities and associated data. This periodic file
       review will confirm evidence of completeness, accuracy, and consistency of: a)
       student selection decision making, including evidence of fair and transparent
       interview panels; b) grade point average monitoring; c) student attendance at
       career-building activities. Concise reports will be generated to document regular
       implementation of this monitoring tool.



                                                                                        18
                                                                           APPENDIX II 



       Based on the action identified above, the Mission requests RIG/Cairo
       concurrence that a management decision has been reached and that this audit
       recommendation be considered closed upon the development of a monitoring
       tool to be completed in January, 2011.

RIG Recommendation 4: Recommend that USAID/Egypt document its review of the
cooperative agreement with AUC to ensure that mission and implementer activities are
identified and understood by all parties, and are reflected in other implementing
documents, such as the work and monitoring plans.

       OET Response: Agreed. OET will clarify with AUC the cooperative agreement’s
       required program activities; annual work plans; and M&E plan. A checklist of
       required cooperative agreement activities/actions; final annual work plans; and a
       revised M&E plan that ensures regular assessment of each activity’s progress
       will be produced by December 31, 2010.

       Based on the action identified above, the Mission requests RIG/Cairo
       concurrence that a management decision has been reached and that this audit
       recommendation be considered closed upon the submission of a revised M&E
       plan on December 31, 2010.

RIG Recommendation 5: Develop and implement a monitoring tool to track and assess
Leaders for Education and Development Scholarship program graduates’ post collegiate
leadership and development activities to document program impact (see page 11).

       OET Response: Agreed. Through the revised M&E plan due to be submitted to
       USAID before December 31, 2010. OET will ensure the LEAD program’s M&E
       director track and assess graduates’ post collegiate activities and report program
       impact. (Youmna Khalil, the new AUC M&E director, joined the LEAD program on
       August 22, 2010, and OET has met with her to discuss her role and USAID
       expectations on this matter.)

       Based on the action identified above, the Mission requests RIG/Cairo
       concurrence that a management decision has been reached and that this audit
       recommendation be considered closed upon the submission of a revised M&E
       plan on December 31, 2010.




                                                                                      19
                                                                         APPENDIX III


          Program Expenditures, Average Student Costs, and 

                          Student Majors 

        Program Expenditures and Average Student Costs as of March 2010

    Class Starting                   Expenditures            Average Cost Per Student
      Semester                            ($)                          ($)
       Fall 2008                       2,805,812                     28,058
       Fall 2009                       1,480,921                     25,981
                                                               Cumulative Average
          Total                         4,286,734
                                                                     27,020

Note: Expenditure total reflects rounding. 


                                    LEAD Student Majors*


                                                Class Starting       Class Starting
                   Major
                                                  Fall 2008            Fall 2009
 Architectural engineering                             1
 Business administration                               1
 Biology                                                                    5
 Chemical engineering                                  5                    5
 Chemistry                                             2                    1
 Communication and media arts                                               5
 Construction engineering                                                   2
 Computer engineering                                  1
 Computer science                                      8                   10
 Economics                                             1
 Electronics engineering                               4                    3
 Journalism and mass communications                                         1
 Mechanical engineering                                6                    2
 Petroleum and energy engineering                      8                   10
 Physics                                               1
 Political science                                     2                    6
 Psychology                                            1                    1
 Undecided                                             8                    5
 Marketing                                             1
 Integrated marketing communications                                        1

* Unaudited AUC information as of March 2010.




                                                                                20 

                                                                                           APPENDIX IV


                Implementer’s Targets and Reported Results*
                                               Fall 2008 Class
Number                      Target                     Met                        Verification
            Grade point average: Average
            grade point average (GPA) is higher
    1                                                   No    65%
            than 3.0 for 80% of students
            (semester)
            Improvement in grade point average
                                                              One student had a GPA below 1.7, and the
            for selected students: 0.5 point
    2                                                  Yes    student's GPA increased by more than 0.5
            improvement for students below 1.7
                                                              points in the following semester.
            grade point average (semester)
            Student scores on a leadership
                                                              83% of the students have an overall official
            index developed by LEAD: Student
    3                                                   No    score greater than 3 as of the fall 2009
            performance is greater than 3 on the
                                                              semester.
            leadership index.
            Student participation rates:
    4                                                  Yes    90%
            90% attendance in trainings
            Student satisfaction with activities:
    5                                                  Yes    84%
            75% satisfaction with activities
            Student satisfaction with LEAD
    6       coordinators: 75% satisfaction with         No    Coordinator’s performance was not evaluated.
            coordinator performance
                                               Fall 2009 Class
Number                      Target                     Met                        Verification

            Grade point average: Average
    1       grade point average is higher than          No    49%
            3.0 for 80% of students (semester)

            Improvement in grade point average
                                                              Three students had GPAs below 1.7, and all
            for selected students: 0.5 point
    2                                                  Yes    three students’ GPAs increased by more than
            improvement for students below 1.7
                                                              0.5 points in the following semester.
            grade point average (semester)
            Student scores on a leadership
                                                              64% of students have an overall unofficial
            index developed by LEAD: Student
    3                                                   No    score greater than 3 as of the fall 2009
            performance is greater than 3 on the
                                                              semester.†
            leadership index.
            Student participation rates:
    5                                                   No    83%
            90% attendance in trainings
            Student satisfaction with activities:
    4                                                  Yes    91%
            75% satisfaction with activities
            Student satisfaction with LEAD
    6       coordinators: 75% satisfaction with         No    Coordinator’s performance was not evaluated.
            coordinator performance

* The LEAD monitoring and evaluation plan also includes an activity target for student participation in
community involvement campaigns. According to AUC officials, this measure makes up part of the
leadership index target developed by LEAD.
†
  LEAD program officials stated that the program does not officially record students’ leadership index scores
for the first semester. Second semester leadership index scores for these students had not been completed
by the time of the audit.



                                                                                                     21
                                                                    APPENDIX V 



          Student Satisfaction Rates for Selected Activities 

                                    Fall 2008 Class 


                                                                    Percentage
                          Reported Rate           Verified Rate
 Name of Activity                                                    Over- or
                              (%)                      (%)
                                                                   Underreported
Aspire leadership
training                       98                        98              0
Fayoum retreat                100                       100             0
Art-of-living session          99                        86             16
Communication
skills training               83                        75              11
Needs assessment              100                       98               2
Misriyati workshop
on identity, diversity,
minority rights, and
conflict resolution            53                       47              13
Presentation skills
training                       NA                       83              NA


                                    Fall 2009 Class

                          Reported Rate           Verified Rate   Percentage Over-
 Name of Activity
                              (%)                      (%)        or Underreported
Weekly meetings                88                       88               1
Vision event                   81                       85               -5
Social skills training         98                       93               6
Career Advising and
Placement Services
Office training                93                       98               -5




                                                                          22 

                                                                APPENDIX VI


         Student Participation Rates for Selected Activities
                          Fall 2008 Class
                           Reported Rate   Verified Rate     Percentage Over-
   Training or Event
                               (%)              (%)          or Underreported
Faculty academics
                            Not reported         75                NA
session
Biweekly meetings           Not reported         84                NA
Team-building event at
                            Not reported        100                NA
Fagnoun
Career Advising and
Placement Services          Not reported         82                NA
Office training
Winter camp                     96               96                 0
Community
transformation project
                            Not reported        100                NA
and team meetings
facilitation
Fayoum retreat              Not reported   Limited support         NA
Team-building retreat in
the black and white         Not reported         92                NA
desert
Art-of-living session           22               22                 0
Basic communication
                                100              90                11
training
Leadership Paradox
                                10          Unsupported
training
Needs assessment
                                100              94                 6
theoretical training
Winter camp                     96               96                 0
Hands-on needs
                                100              92                 9
assessment training
Misriyati workshop on
identity, diversity,
                                100              90                11
minority rights, and
conflict resolution
Self-awareness session      Not reported         76                NA
Presentation skills
                            Not reported        100                NA
coaching
Fall 2009 weekly
                            Not reported         82                NA
meetings




                                                                        23 

                                                                APPENDIX VI 



         Student Participation Rates for Selected Activities 

                          Fall 2009 Class 


                                                               Percentage
                            Reported Rate   Verified Rate
   Training or Event                                            Over- or
                                (%)              (%)
                                                              Underreported
Orientation program
    October 3 session        Not reported         49               NA
    October 9 session        Not reported         93               NA
Weekly meetings                  100        Limited support
                                            No attendance
Tailored orientation             100
                                             documented
Presentation skills
                                 100              93               8
training
Discussion and training
                                 100         Unsupported
in constructive criticism
Skill enhancement
                             Not reported         16
workshops
E-mail etiquette training        100             100               0
Personal visions training        100              98               2
Social etiquette training        100              98               2
Cultural outing                             No attendance
                                 98
(to concert)                                 documented
Career Advising and
Placement Services               100              99               1
Office training
Values training                  100              96                5
Dahab retreat                     98              100              -2
Old Cairo tour                    95        Limited support
Annual conference            Not reported         75               NA




                                                                          24
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave., NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
